Washington, D.C. 20530

February 11, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Throne Thomas Smiley v. United States of America,
S.Ct. No. 20-6600
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on December 7, 2020.
Although the government waived its right to file a response, the Court has requested that a
response be filed. The government’s response is now due on February 18, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 22, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-6600
SMILEY, THRONE THOMAS
USA

MACKENZIE S. LUND
FEDERAL DEFENDERS MIDDLE DISTRICT OF
ALABAMA
817 SOUTH COURT STREET
MONTGOMERY, AL 36104

